                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-02064-252




    Combined Assessment Program
           Review of the 

         VA Eastern Kansas 

         Health Care System 

          Topeka, Kansas 





October 2, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 DOM            domiciliary
                 ED             emergency department
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Eastern Kansas Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                        CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objective and Scope ..................................................................................................           1

  Objective .................................................................................................................    1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. VISN Director Comments ..................................................................................                  20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            29

  F. Report Distribution .............................................................................................          30

  G. Endnotes ...........................................................................................................       31





VA OIG Office of Healthcare Inspections
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care. We
conducted the review the week of June 9, 2014.

Review Results:          The review covered seven activities.                  We made no
recommendations in the following two activities:

 Coordination of Care

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishments were adding an onsite pharmaceutical
dispensing script center and the Healthcare Field Analytics Program.

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure that actions from peer reviews are consistently completed
and reported to the Peer Review Committee and that the Peer Review Committee
consistently submits quarterly summary reports to the Medical Executive Committee.
Require the Surgical Work Group to meet monthly and to consistently document its
review of National Surgical Office reports. Analyze data from electronic health record
quality reviews at least quarterly. Include in the quality control policy for scanning how a
scanned image is annotated to identify that it has been scanned. Ensure the Tissue
and Transfusion Committee member from Anesthesia Service consistently attends
meetings.

Environment of Care: Ensure damaged optical examination chairs in the eye clinics are
repaired or removed from service.

Medication Management:        Ensure clinicians conducting medication education
accommodate identified learning barriers and document the accommodations made to
address those barriers.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient, and provide printed stroke education to patients
upon discharge. Ensure staff involved in assessing and treating stroke patients receive
the training required by the facility. Collect and report to the Veterans Health
Administration the percent of patients with stroke symptoms who had the stroke scale
completed and the percent of patients screened for difficulty swallowing before oral
intake.

Magnetic Resonance Imaging Safety: Conduct contrast reaction emergency drills in
magnetic resonance imaging (MRI). Conduct initial patient safety screenings. Ensure
radiologists and/or Level 2 MRI personnel document resolution in patients’ electronic
health records of all identified MRI contraindications prior to the scan. Require that all


VA OIG Office of Healthcare Inspections                                                         i
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


designated Level 1 ancillary staff receive annual level-specific MRI safety training.
Ensure appropriate signage and barriers are in place at the Leavenworth division to
restrict access to Zone III. Require that the MRI Safety Committee and the Patient
Safety Manager evaluate the identified potential safety and security risks and take
appropriate actions.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–28, for the full
text of the Directors’ comments.) We consider recommendation 17 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



                               Objective and Scope 

Objective
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objective of the CAP review is to
conduct recurring evaluations of selected health care facility operations, focusing on
patient care quality and the EOC.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

      QM

      EOC

      Medication Management

      Coordination of Care

      Acute Ischemic Stroke Care

      CLC Resident Independence and Dignity

      MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through June 10, 2014,
and was done in accordance with OIG standard operating procedures for CAP
reviews. We also asked the facility to provide the status on the recommendations we
made in our previous CAP report (Combined Assessment Program Review of the
VA Eastern Kansas Health Care System, Topeka, Kansas, Report No. 11-04568-148,
April 10, 2012).




VA OIG Office of Healthcare Inspections                                                        1
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


We surveyed employees regarding patient safety and quality of care at the facility. An
electronic survey was made available to all facility employees, and 463 responded. We
shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

Onsite Pharmaceutical Dispensing Script Center
The DOM MH Residential Rehabilitation Treatment Program added an onsite
pharmaceutical dispensing script center. This accomplishment was the result of a
Systems Redesign project to reduce the number of DOM patients refilling prescriptions
at the outpatient pharmacy window. This was a patient safety concern because many
of the patients were unable to make the trip from the DOM to the pharmacy window in
the main building. The Systems Redesign project team determined that a kiosk was
appropriate for the DOM’s needs and worked with contracting personnel in order to
procure the equipment to make this idea a reality.

Healthcare Field Analytics Program
The Healthcare Analytics Certificate Program is a collaborative effort between Nebraska
Methodist College and the VA Nebraska-Western Iowa Health Care System. The four
non-credit courses in the program enable participating staff to develop the knowledge
and skills to be able to lead data analysis and improvement efforts. Since each course
builds upon the prior one, students take the courses in order. All courses are taught
online using a mix of asynchronous and synchronous approaches. Seven current
employees have graduated from the program, and nine employees are now active in the
program. The facility was a pilot facility for field analytics in 2011 and now has the
Western Orbit Knowledge Management and Analytics Service.




VA OIG Office of Healthcare Inspections                                                        2
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met              Six months of PRC meeting minutes reviewed:
       selected requirements:                              Of the 27 actions expected to be completed,
        The PRC was chaired by the Chief of Staff           25 were not were reported to the PRC.
          and included membership by applicable
                                                          Twelve months of MEC meeting minutes
          service chiefs.
                                                          reviewed:
        Actions from individual peer reviews were
                                                           Only two quarterly summary reports were
          completed and reported to the PRC.
                                                             documented as received by the MEC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group only met 7 times
       requirements:                                        over the past 9 months.
        An interdisciplinary committee with
                                                          Seven months of Surgical Work Group meeting
          appropriate leadership and clinical
                                                          minutes reviewed:
          membership met monthly to review surgical
                                                           There was no evidence that National Surgical
          processes and outcomes.
                                                            Office reports were reviewed for 2 of the
        Surgical deaths with identified problems or
                                                            3 quarters.
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in    Medical Records Committee meeting minutes
       the EHR met selected requirements:                 reviewed:
        A committee was responsible to review             EHR quality data was analyzed for only
          EHR quality.                                       2 quarters.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
 X     The policy for scanning non-VA care                 The scanning policy did not include how a
       documents met selected requirements.                 scanned image is annotated to identify that it
                                                            has been scanned.




VA OIG Office of Healthcare Inspections                                                                      4
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


NM              Areas Reviewed (continued)                                    Findings
 X     The process to review blood/transfusions           Four quarters of Tissue and Transfusion
       usage met selected requirements:                   Committee meeting minutes reviewed:
        A committee with appropriate clinical             The clinical representative from Anesthesia
          membership met at least quarterly to review       Service attended only two of four meetings.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the Peer Review Committee.

2. We recommended that the Peer Review Committee consistently submit quarterly summary
reports to the Medical Executive Committee.

3. We recommended that the Surgical Work Group meet monthly and consistently document
its review of National Surgical Office reports.

4. We recommended that processes be strengthened to ensure that data from electronic
health record quality reviews are analyzed at least quarterly.

5. We recommended that the quality control policy for scanning include how a scanned image
is annotated to identify that it has been scanned.

6. We recommended that processes be strengthened to ensure that the Tissue and
Transfusion Committee member from Anesthesia Service consistently attends meetings.




VA OIG Office of Healthcare Inspections                                                                   5
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACUs, and the eye clinics.b

At the Topeka division, we inspected inpatient units (CLC, intensive care, medical/surgical, and
MH), outpatient clinics (dental, eye, primary care, rehabilitation, and SDS), specialty care clinics
(endoscopy, orthopedics, otolaryngology, podiatry, surgery), the PACU, and the urgent care
clinic. At the Leavenworth division, we inspected inpatient units (CLC, intensive care, and
medical/surgical), outpatients clinics (cardiology, dermatology, eye, and primary care), the
DOM, the ED, the PACU, and SDS. Additionally, we reviewed relevant documents, conversed
with key employees and managers, and reviewed 44 employee training records (29 SDS,
10 PACU, and 5 eye clinic). The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                     
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
       Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.



VA OIG Office of Healthcare Inspections                                                                   6
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


NM          Areas Reviewed for SDS and PACU                                   Findings
                          (continued)
       Environmental safety requirements in SDS
       and on the PACU were met.
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received               
       laser safety training with the frequency
       required by local policy.
 X     Environmental safety requirements in the eye        Six of nine optical examination chairs had
       clinic were met.                                     cracked or torn arm rests.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional              
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

7. We recommended that processes be strengthened to ensure that damaged optical
examination chairs in the eye clinics are repaired or removed from service.




VA OIG Office of Healthcare Inspections                                                                   7
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 32 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
 X     If learning barriers were identified as part of     For the 3 of the 10 patients with identified
       the learning assessment, medication                  learning barriers, EHR documentation did not
       counseling was adjusted to accommodate the           reflect medication counseling accommodation
       barrier(s).                                          to address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

8. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   8
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of seven patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 25 patients who experienced stroke symptoms,
and 10 employee training records (2 ED, 2 urgent care clinic, 3 intensive care unit, and
3 nursing), and we conversed with key employees. We also conducted onsite inspections of
acute inpatient units, critical care units, the ED, and the urgent care clinic. The table below
shows the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                        Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Eleven of 17 applicable EHRs did not contain
       Health stroke scale for each patient within the      documented evidence of completed stroke
       expected timeframe.                                  scales.
 NA    Clinicians provided medication tissue
       plasminogen activator timely to halt the stroke
       and included all required steps, and tissue
       plasminogen activator was in stock or
       available within 15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
 X     Clinicians provided printed stroke education to     None of the EHRs contained documentation
       patients upon discharge.                             that stroke education was provided to the
                                                            patient/caregiver.
 X     The facility provided training to staff involved    None of the employees had completed the
       in assessing and treating stroke patients.           web-based training required by the facility.
 X     The facility collected and reported required        There was no evidence that the following data
       data related to stroke care.                         were collected and reported to VHA:
                                                            o Percent of patients with stroke symptoms
                                                                who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                                swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

9. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.


VA OIG Office of Healthcare Inspections                                                                  10
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


10. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that staff who are involved in
assessing and treating stroke patients receive the training required by the facility and that
compliance be monitored.
12. We recommended that the facility collect and report to VHA the percent of patients with
stroke symptoms who had the stroke scale completed and the percent of patients screened for
difficulty swallowing before oral intake.




VA OIG Office of Healthcare Inspections                                                                  11
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 12 EHRs of residents (2 residents receiving restorative nursing services and
10 residents not receiving restorative nursing services but candidates for services). We also
observed 5 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                  12
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


NM        Areas Reviewed for Assistive Eating                                  Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  13
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 44 employees (29 randomly
selected Level 1 ancillary staff and 15 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of two MRI areas—one at the Leavenworth division and one at the Topeka division.
The table below shows the areas reviewed for this topic. The areas marked as NM did not
meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.

NM                     Areas Reviewed                                       Findings
 X     The facility completed an MRI risk              Contrast reaction emergency drills were not
       assessment, there were documented                conducted in the MRI areas.
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted  Fourteen EHRs (40 percent) did not contain
       prior to MRI, and the secondary patient safety   initial patient safety screenings.
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
 X     Any MRI contraindications were noted on the     Twenty of the 31 applicable EHRs
       secondary patient safety screening form, and     (65 percent) did not contain documentation
       a Level 2 MRI personnel and/or radiologist       that all identified contraindications were
       addressed the contraindications and              addressed prior to MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI         Seventeen Level 1 ancillary staff did not
       personnel were designated and received           receive level-specific annual MRI safety
       level-specific annual MRI safety training.       training.
 X     Signage and barriers were in place to prevent  The Leavenworth division had no signage to
       unauthorized or accidental access to Zones III   indicate restriction to Zone III.
       and IV.                                         At the Leavenworth division, Zone III was not
                                                        adequately protected to prohibit unauthorized
                                                        access.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.




VA OIG Office of Healthcare Inspections                                                                  14
                                          CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


NM             Areas Reviewed (continued)                                     Findings
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
 X     The facility complied with any additional           The Leavenworth division’s MRI area had
       elements required by VHA or local policy.            potential risks with electrical safety, tripping
                                                            hazards, and unsecured access to the phone
                                                            and information technology systems.

Recommendations

13. We recommended that processes be strengthened to ensure that contrast reaction
emergency drills are conducted in magnetic resonance imaging and that compliance be
monitored.

14. We recommended that processes be strengthened to ensure that initial patient safety
screenings are conducted and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

16. We recommended that processes be strengthened to ensure that all designated
Level 1 ancillary staff receive annual level-specific magnetic resonance imaging safety training
and that compliance be monitored.

17. We recommended that appropriate signage and barriers be in place at the Leavenworth
division to restrict access to magnetic resonance imaging Zone III.

18. We recommended that the Magnetic Resonance Imaging Safety Committee and the Patient
Safety Manager evaluate the identified potential safety and security risks and take appropriate
actions.




VA OIG Office of Healthcare Inspections                                                                    15
                                      CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                             Appendix A


    Facility Profile (Topeka/589A5) FY 2014 through June 20141
Type of Organization                                                                      Secondary
Complexity Level                                                                          1c-High complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $277
Number of:
    Unique Patients                                                                      30,671
    Outpatient Visits                                                                    281,774
    Unique Employees2                                                                    1,784
Type and Number of Operating Beds:
    Hospital                                                                             196
    CLC                                                                                  138
    MH                                                                                   202
Average Daily Census (as of May 2014):
    Hospital                                                                             76
    CLC                                                                                  52
    MH                                                                                   160
Number of Community Based Outpatient Clinics                                              9
Location(s)/Station Number(s)                                                             St. Joseph/589GI
                                                                                          Wyandotte/589GJ
                                                                                          Chanute/589GM
                                                                                          Emporia/589GN
                                                                                          Garnett/589GP
                                                                                          Junction City/589GR
                                                                                          Seneca/589GT
                                                                                          Lawrence/589GU
                                                                                          Ft. Scott/589GV
VISN Number                                                                               15




1
    All data is for FY 2014 through June 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    16
                                                                CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                        17
                                                     CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                             18
                                                                                                CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


                                                                         Metric Definitions
 Measure                       Definition                                                                                   Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)            A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                      A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                   A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                         A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                  A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)               A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                            A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                       A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                         A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                         A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)            A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                        A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                             A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                               A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                      A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                         A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                        A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                    A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                       A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                      A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                          A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                               A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)   A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                   19
                                CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 24, 2014

          From:        Director, VA Heartland Network (10N15)

       Subject:        CAP Review of the VA Eastern Kansas Health Care
                       System, Topeka, KS

             To:       Director, Kansas City Regional Office of Healthcare
                       Inspections (54KC)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       Attached, please find the initial status response for the Combined
       Assessment Program Review of the VA Eastern Kansas Health Care
       System, Topeka KS (Conducted the week of June 9, 2014).

       I have reviewed and concur with the Medical Center Director’s response.
       Thank you for this opportunity to focus on continuous performance
       improvement.

       For additional questions, please feel free to contact Mary O’Shea,
       VISN 15 Quality Management Officer at 816-701-3000.


                   (original signed by:)
       WILLIAM P. PATTERSON, MD, MSS
       Network Director
       VA Heartland Network (VISN 15)




VA OIG Office of Healthcare Inspections                                                        20
                                CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 21, 2014

          From:        Director, VA         Eastern   Kansas    Health    Care    System
                       (589A5/00)

       Subject:        CAP Review of the VA Eastern Kansas Health Care
                       System, Topeka, KS

             To:       Director, VA Heartland Network (10N15)

       I appreciate the OIG's comprehensive report and efforts to ensure high
       quality of care for our Veterans. Eastern Kansas is in concurrence with
       the report.


                    (original signed by:)
       A RUDY KLOPFER, FACHE, VHA-CM




VA OIG Office of Healthcare Inspections                                                        21
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the Peer Review
Committee.

Concur

Target date for completion: October 31, 2014

Facility response: New action format for all Level 2s and 3s has been implemented.
Cases will be monitored until all actions are completed. Actions and completion dates
are now reported to the Peer Review Committee on a monthly basis. Seventy percent
of all Level 2 and 3 cases will be audited until 3 consecutive months of 90 percent or
greater compliance is maintained. After 3 consecutive months of compliance the Peer
Review Committee will determine perimeters for continued audits to ensure maintained
compliance with actions being completed and results reported. The Medical Executive
Board will receive a quarterly report on all OIG findings follow-up.

Recommendation 2. We recommended that the Peer Review Committee consistently
submit quarterly summary reports to the Medical Executive Committee.

Concur

Target date for completion: January 31, 2015

Facility response: Quarterly summary reports will be submitted to the Medical Executive
Board. The Risk Manager will be in attendance to discuss reports. Medical Executive
Board minutes will document activity.

Recommendation 3. We recommended that the Surgical Work Group meet monthly
and consistently document its review of National Surgical Office reports.

Concur

Target date for completion: January 31, 2015

Facility response: Surgical Service Workgroup will meet monthly. The “tracking log” will
be implemented July 21, 2014. Medical Executive Board will monitor compliance. The
meeting minutes template has been changed to include a section to include information
and reports for VA Surgical Quality Improvement Program and other national reports.




VA OIG Office of Healthcare Inspections                                                       22
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Recommendation 4. We recommended that processes be strengthened to ensure that
data from electronic health record quality reviews are analyzed at least quarterly.

Concur

Target date for completion: April 30, 2015

Facility response: The Medical Records Committee will meet on a quarterly basis.
Items from the agenda that cannot be voted on, due to lack of a quorum will be sent out
to the Medical Records Committee members via email for approval. Medical Executive
Board will monitor compliance.

Recommendation 5. We recommended that the quality control policy for scanning
include how a scanned image is annotated to identify that it has been scanned.

Concur

Target date for completion: February 27, 2015

Facility response: The Document Scanning Health System Policy Memoranda will be
revised to add that documents are date stamped when scanned into Computerized
Patient Record System (CPRS). Seventy-five scanned documents will be monitored
monthly to ensure compliance. Compliance will be monitored in the Medical Records
Committee. Audits will be completed until 90 percent compliance is reached for
6 months with 3 consecutive month’s compliance. The Medical Records Committee will
determine perimeters for continued audits to evaluate continued and ongoing
compliance.

Recommendation 6. We recommended that processes be strengthened to ensure that
the Tissue and Transfusion Committee member from Anesthesia Service consistently
attends meetings.

Concur

Target date for completion: January 31, 2015

Facility response: Anesthesiology has designated an official member to attend the
Tissue and Transfusion Committee. In their absence, a representative from Anesthesia
will attend the meeting. Tissue and Transfusion Committee will monitor compliance and
elevate to Medical Executive Board if attendance continues to be an issue.

Recommendation 7. We recommended that processes be strengthened to ensure that
damaged optical examination chairs in the eye clinics are repaired or removed from
service.

Concur

Target date for completion: January 31, 2015


VA OIG Office of Healthcare Inspections                                                       23
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Facility response: Chairs in the eye clinic will either be repaired or replaced. Currently
chairs are being evaluated to determine if repair is an option. Until chair arms are
replaced or repaired, bio-med will provide a covering that will allow cleaning between
patient uses.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: March 15, 2015

Facility response: Barriers to learning must be identified and documented upon
admission and at the time of discharge. This documentation must include the strategies
implemented to overcome the identified barriers. All learning barriers identified upon
admission must be addressed at the time of discharge to ensure patients understand all
discharge instructions. Templates used by nursing and pharmacy staff to document
learning assessments at the time of admission and discharge will be updated to include
a required field for documenting strategies used to address identified barriers:

      EK-IPAA 3 NURSING ADMISSION SCREEN
      EK-PATIENT EDUCATION
      EK-NURSING DISCHARGE SUMMARY
      EK-PHARMACY DISCHARGE COUNSELING
      EK-PHARMACY MEDICATION COUNSELING
      EK-PHARMACY MEDICATION COUNSELING (BP-L)
      EK-PHARMACY MEDICATION REVIEW (BP)

Nursing and pharmacy staff will receive education regarding the updated templates. To
determine compliance, Pharmacy Service will audit 60 inpatient charts on a monthly
basis for at least 6 months with 90 percent compliance being maintained for
3 consecutive months. Ongoing audit requirements will be determined through
Pharmacy Service to ensure maintained compliance. The results of the audits will be
communicated to Nursing Service and Medicine Service, facilitating collaboration
between Pharmacy, Nursing, and Medicine Services to ensure that patients and/or
caregivers understand instructions provided upon discharge, with that understanding
documented in the patients’ electronic health records. Pharmacy Service will provide a
monthly report to the Readiness Committee.




VA OIG Office of Healthcare Inspections                                                       24
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: January 31, 2015

Facility response: Information instructing staff on how to complete the National Institutes
of Health Scales is in the Hospitalist Manual, additionally the scale is detailed on the
acute ischemic stroke algorithm that is posted in every acute unit. Also National
Institutes Health Scales information is included in the Health System Policy Monitor
(HSPM). A memo was sent out to all acute staff providers about the required use of the
National Institutes Health Scales with acute ischemic stroke patients. Audits will be
performed on 30 percent of patients with an acute stroke for at least 6 months and until
3 consecutive months of 90 percent compliance is achieved and maintained.
Compliance reports will be tracked through the Emergency Room Committee on a
monthly basis; also they will be responsible for assigning additional audits to ensure that
compliance is maintained past the initial auditing period.

Recommendation 10. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: January 31, 2015

Facility response: An automatic order drops into Computerized Patient Record System
(CPRS) when the discharge documentation is completed by the provider. This order
instructs staff to provide the appropriate information/educational handouts to the patient
and/or family. Task completion of stroke education being provided to the Veteran
and/or family will be documented in the medical record. Audits will be performed on
30 percent of discharged acute stroke patients for at least 6 months and until
3 consecutive months of 90 percent compliance is achieved and maintained.
Compliance reports will be tracked through the Emergency Room and Intensive Care
Unit/Progressive Care Unit Committees; with additional audits assigned through the
Emergency Room Committee to ensure ongoing compliance.

Recommendation 11. We recommended that processes be strengthened to ensure
that staff who are involved in assessing and treating stroke patients receive the training
required by the facility and that compliance be monitored.

Concur

Target date for completion: January 31, 2015




VA OIG Office of Healthcare Inspections                                                       25
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Facility response: Staff has been assigned web-based training and new staff will be
assigned training as appropriate. Medicine Office will track compliance of medical staff
and Nursing Service will monitor compliance of nursing staff; reports will go to the
Emergency Room and Intensive Care Unit/Progressive Care Unit Committees for
oversight on a quarterly basis.

Recommendation 12. We recommended that the facility collect and report to VHA the
percent of patients with stroke symptoms who had the stroke scale completed and the
percent of patients screened for difficulty swallowing before oral intake.

Concur

Target date for completion: January 31, 2015

Facility response: VA Eastern Kansas will collect and report to the Veterans Health
Administration the percent of patients with stroke symptoms who had the stroke scale
and the percent of patients screened for difficulty swallowing before oral intake per
Veterans Health Administration Directives. Compliance will be monitored in the
Emergency Room and Intensive Care Unit/Progressive Care Unit Committees.

Recommendation 13. We recommended that processes be strengthened to ensure
that contrast reaction emergency drills are conducted in magnetic resonance imaging
and that compliance be monitored.

Concur

Target date for completion: January 1, 2015

Facility response: Coordination with Education and Safety Departments is in process to
schedule contrast reaction emergency drills. Drills will be performed annually with
results provided to Magnetic Resonance Imaging Safety Committee. The Magnetic
Resonance Imaging Safety Committee will monitor compliance.

Recommendation 14. We recommended that processes be strengthened to ensure
that initial patient safety screenings are conducted and that compliance be monitored.

Concur

Target date for completion: January 1, 2015

Facility response: Instruction was provided to physicians that both a consult and a
request must to be entered for all magnetic resonance imaging examinations. The
magnetic resonance imaging consult contains initial safety screening questions and this
will ensure that the screening is documented into the patient’s electronic medical record.
Fifty magnetic resonance imaging examination audits will be completed on a monthly
basis for 6 months and until 90 percent compliance is maintained for 3 consecutive
months; further audits will be assigned by the Magnetic Resonance Imaging Safety



VA OIG Office of Healthcare Inspections                                                       26
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Committee to ensure compliance is being maintained. Magnetic Resonance Imaging
Safety Committee will monitor audit results and ongoing compliance.

Recommendation 15. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: November 30, 2014

Facility response: A new Computerized Patient Record System Template was created
titled “MRI Safety Note”. A memorandum was sent to all magnetic resonance imaging
staff notifying of the new template and requirement for use. MRI Safety Notes will be
entered into Computerized Patient Record System for every magnetic resonance
imaging patient according to Veterans Health Administration Handbook 1105.05. Fifty
magnetic resonance imaging audits will be completed on a monthly basis for 6 months
and until 90 percent compliance is maintained for 3 consecutive months; further audits
will be assigned by the Magnetic Resonance Imaging Safety Committee to ensure
compliance is being maintained. The Magnetic Resonance Imaging Safety Committee
will monitor audit results and ongoing compliance.

Recommendation 16. We recommended that processes be strengthened to ensure
that all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.

Concur

Target date for completion: November 30, 2014

Facility response: Training has been assigned to those required who have not yet
received it. The Chief Technologist will monitor compliance with completion of Magnetic
Resonance Imaging Level 1 Safety Training monthly and will report the results to the
Magnetic Resonance Imaging Safety Committee on a quarterly basis.

Recommendation 17. We recommended that appropriate signage and barriers be in
place at the Leavenworth division to restrict access to magnetic resonance imaging
Zone III.

Concur

Target date for completion: June 30, 2014

Facility response: Signs were ordered and applied to Zone III access areas. Stanchion
posts and chains were placed to restrict access to magnetic resonance imaging trailer.




VA OIG Office of Healthcare Inspections                                                       27
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS


Recommendation 18. We recommended that the Magnetic Resonance Imaging
Safety Committee and the Patient Safety Manager evaluate the identified potential
safety and security risks and take appropriate actions.

Concur

Target date for completion: January 1, 2015

Facility response: An engineering and safety team met with the Chief Technologist and
came up with a plan to address the identified potential safety and security risks. A
deeper box to house the phone and data cables will be installed with a knock-out at the
bottom so that the front cover will be able to completely close while the cables are
plugged in. This will eliminate the exposed cable plugs during operation. A cable mat
has been ordered to cover the cables on the ground. The Patient Safety Manager has
reviewed and concurred with the responses of the OIG related to magnetic resonance
imaging safety. Additionally, the Patient Safety Manager is a member of the Magnetic
Resonance Safety Committee and will discuss the policy regarding safety incident
reporting at the Post OIG Magnetic Resonance Imaging Safety Committee meeting
scheduled for July 28, 2014; this will ensure that all members of the committee have a
clear understanding of what constitutes an incident and when reporting is required.
After installation of the cable box and cable mat, the Patient Safety Manager, Chief
Technologist and engineering team will inspect the area to determine compliance and
report results to the Magnetic Resonance Imaging Safety Committee.




VA OIG Office of Healthcare Inspections                                                       28
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Larry Selzler, MSPT, Team Leader
Contributors            Stephanie Hensel, RN, JD
                        Cindy Niemack-Brown, CMSW, LMHP
                        James Seitz, RN, MBA
                        Laura Snow, LCSW, MHCL
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       29
                               CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Heartland Network (10N15)
Director, VA Eastern Kansas Health Care System (589A5/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Roy Blunt, Claire McCaskill, Jerry Moran, Pat Roberts
U.S. House of Representatives: Sam Graves, Tim Huelskamp, Lynn Jenkins,
 Kevin Yoder


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       30
                                   CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS
                                                                                          Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        31
                                      CAP Review of the VA Eastern Kansas Health Care System, Topeka, KS



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          32
